                            TELAMON CORPORATION
                                      DELAWARE
                                         ***

                              AUDIT REPORT ON
                     U.S. DEPARTMENT OF LABOR GRANT
                            NUMBER AC-10741-00-55



                               Performance Audit for
                   Program Year July 1, 2000 through June 30, 2001




This audit was performed by Harper, Rains, Stokes & Knight, P.A., Certified Public
Accountants, under contract to the Inspector General, and, by acceptance, it becomes a report
of the Office of Inspector General.


                                                   __________________________________
                                                    Assistant Inspector General for Audit




                                                       Report Number: 21-03-019-03-365

                                                       Date Issued: September 30, 2003
                                                   TABLE OF CONTENTS


                                                                                                                                    Page

ACRONYMS .............................................................................................................................i

EXECUTIVE SUMMARY ....................................................................................................... 1

INTRODUCTION AND BACKGROUND .............................................................................. 2

OBJECTIVES, SCOPE, AND METHODOLOGY................................................................... 3

FINDINGS................................................................................................................................. 5

     1. A Number of Participant Files Were Incomplete............................................................. 5

     2. Performance Data Reviewed Were Accurate and Supported ..........................................7


SCHEDULES

                Schedule A - Schedule of Costs Reported............................................................... 8

                Schedule A-1 - Schedule of Costs Reported
                Supplemental Information ....................................................................................... 9

                Schedule B - Schedule of Performance Reported..................................................10

APPENDIX

Appendix A –Telamon’s Written Response to Draft Report .................................................. 12
                                ACRONYMS




CFR   -   Code of Federal Regulations

DOL -     U.S. Department of Labor

DSFP -    Division of Seasonal Farmworkers Programs

ESL   -   English as a Second Language

ETA   -   Employment and Training Administration

FSR   -   Financial Status Report

GED -     General Equivalency Diploma

NFJP -    National Farmworker Jobs Program

OMB -     Office of Management and Budget

OIG   -   Office of Inspector General

TCD -     Telamon Corporation of Delaware

WIA   -   Workforce Investment Act




                                         i
                               EXECUTIVE SUMMARY



The U.S. Department of Labor (DOL), Office of Inspector General (OIG), contracted with
Harper, Rains, Stokes, & Knight P.A., to perform an audit of the Workforce Investment Act's
National Farmworker Jobs Program to determine whether the program was operating in
accordance with applicable regulations. DOL provides 53 grants to states and nonprofit
organizations to operate the program within 47 states and Puerto Rico. We selected a statistical
sample of nine grantees for review. We tested the direct and indirect costs claimed for
reimbursement by these grantees to determine if the costs claimed were reasonable, allowable
and allocable under the terms of the grant agreement and the cost principles set forth in OMB
Circular A-122, or OMB Circular A-87, as applicable. We also tested performance reported to
determine whether it was accurate and properly supported. The Program was audited for
program year 2000 (July 1, 2000 through June 30, 2001).

This report discusses the results of our audit of Telamon Corporation - Delaware (TCD) under
DOL Grant Number AC-10741-00-55. Under the authority of the Workforce Investment Act of
1998 (WIA), DOL's Employment and Training Administration (ETA) awarded TCD a grant in
the amount of $125,899 to provide training and services to eligible migrant and seasonal
farmworkers throughout the State of Delaware to strengthen their ability to achieve economic
self-sufficiency. TCD operates a single office in Dover, providing core, intensive and training
services to eligible farmworkers. During PY 2000, TCD placed 13 participants in unsubsidized
jobs, and provided 135 with supportive services.

Our audit found that some participant files are not documented in compliance with laws and
regulations. The costs incurred ($684) on these improperly documented participants are
questioned. We recommend that ETA recover the $684.

The performance reported was found to be accurate and supported based on the testing we
performed.

The auditee has provided a written response included as Appendix A in this report. No changes
in our position were made as a result of the response.




                                                1
                         INTRODUCTION AND BACKGROUND


The Division of Seasonal Farmworker Programs (DSFP) within ETA is responsible for
administering the National Farmworker Jobs Program (NFJP). The intent of NFJP, under section
167 of the Workforce Investment Act, is to strengthen the ability of eligible migrant and seasonal
farmworkers and their families to achieve economic self-sufficiency through job training and
other related services that address their employment related needs. Assistance from the NFJP is
accessed through the NFJP grantee partners and local One-Stop Centers.

TCD, a 501(c)(3) organization, serves migrant and seasonal farmworkers and their families under
the provision of the WIA grants. TCD has served the State of Delaware since 1979, educating,
training and assisting those migrant and seasonal farmworkers who desire to leave the migrant
stream. Within the State of Delaware, TCD administers NFJP from a single office in Dover,
providing core, intensive and training services to eligible farmworkers.

TCD was awarded a grant in the amount of $125, 899 to provide training and services to eligible
migrant and seasonal farmworkers. Core services include outreach, admission and orientation as
well as emergency assistance needed by farmworkers to sustain their participation in the
agricultural workforce. Intensive Services include in-depth assessments and the development of
an Individual Employment Plan. Training services are usually in the context of a classroom
environment and are provided by institutions that subcontract with TCD on a per-participant
basis, according to the objectives of the participant’s Individual Employment Plan.




                                                2
                 OBJECTIVES, SCOPE, AND METHODOLOGY


The primary objectives of our audit were to determine whether the costs claimed by TCD for the
period July 1, 2000 through June 30, 2001, under the DOL grant were reasonable, allowable, and
allocable under the cost principles set forth in OMB Circular A-122 and grant guidelines and to
determine that performance reported was accurate and properly supported.

Our audit was performed in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States. Our audit included such tests of the accounting records
and other accounting procedures as we considered necessary in the circumstances.

Our audit was performed using the criteria we considered relevant. These criteria included those
established by the Federal Government in: OMB Circulars A-110, Uniform Administrative
Requirements for Grants and Agreements with Institutions of Higher Education, Hospitals and
Non-Profit Organizations, and A-122, Cost Principles for Non-Profit Organizations; the
Workforce Investment Act of 1998 (WIA); 20 CFR Part 669 National Farmworker Jobs Program
under Title 1 of the WIA; and 29 CFR Parts 95 and 96, Administrative Requirements and Audits of
Federally Funded Grants, Contracts, and Agreements.

Management Controls

To meet the aforementioned objectives, we reviewed management controls over relevant
transaction cycles. Our work on established management controls included obtaining and
reviewing policies and procedures manuals, interviewing key personnel, and reviewing selected
transactions to observe the controls in place. Our testing related to management controls was
focused only on the controls related to our audit objectives of reviewing the reported cost and
performance data and was not intended to form an opinion on the adequacy of management
controls, and we do not render such an opinion. Weaknesses noted in our testing are discussed in
the Findings section of this report.

Compliance with Laws & Regulations

In order to determine compliance with the above-mentioned laws and regulations, we performed
detailed tests of transactions and tested a sample of participants who were enrolled in the program
during our audit period. Our detailed tests of transactions included both analytical review and
substantive tests of accounts. Our testing related to compliance with laws and regulations was
focused only on the laws and regulations relevant to our audit objectives of reviewing the reported
cost and performance data and was not intended to form an opinion on the compliance with laws
and regulations as a whole, and we do not render such an opinion. Instances of noncompliance
are discussed in the Findings section of this report.




                                                 3
Our sample universe of participants included all participants terminating during the period. There
were no participants that remained enrolled at the end of the program year. In program year 2000,
TCD served 150 participants, and all exited the program during the year. Farmworkers who
received emergency related assistance, most commonly food or transportation assistance,
comprised the largest group served with a total of 135 participants (90 percent). The remainder
was made up of unsubsidized employment placements with a total of 13 (9 percent) and 2 other
terminations (1 percent). We reviewed a base sample of 42 participant files. Our sampling
technique was a random selection so that all participants had an equal chance of being selected.
Procedures performed on the selected participants included reviewing the eligibility determination,
reviewing the types of services provided and the costs of those services, and reviewing the
program outcome for those exiting the program.

The costs reported and performance reported by TCD are presented on the Schedules of Costs
Reported and Performance Reported in this report. These schedules, included as schedules A and
B, respectively, are based on the information reported to ETA in the Financial Status Report and
the Program Status Summary.


Entrance and Exit Conferences


The fieldwork related to participant eligibility and program performance was performed at TCD’s
office in Dover, Delaware, during the period December 10 through December 20, 2001.
Fieldwork related to the other direct program and administrative costs associated with TCD was
performed at the corporate headquarters of Telamon Corporation, the parent company of TCD, in
Raleigh, NC, during the period December 11, 2001 through February 8, 2002. The entrance
conference for the latter segment of the fieldwork was held on December 11, 2001, during which
we met with officials of Telamon Corporation to discuss the purpose, scope and timing of the
audit work to be performed. We held an exit conference with these same officials on February 8,
2002, to discuss our findings and to obtain their comments.

Auditee’s Written Comments


A draft copy of this report was provided to TCD on August 29, 2003. TCD provided their written
response to the report September 13, 2003. The written response is included as Appendix A,
beginning on page 12.




                                                 4
                                            FINDINGS



1.   A Number of Participant Files Were Incomplete

During program year 2000, TCD provided training and services to 150 participants. We selected a
sample of 42 participants and found that the files for 10 or 23 percent of the participants in the
sample lacked sufficient documentation to enable TCD to determine their eligibility.

To be eligible under NFJP, a person must be a disadvantaged migrant or seasonal farmworker, or
their dependents who has been primarily employed in agricultural labor that is characterized by
chronic unemployment or underemployment during the 12-month eligibility period (12 months
within the 24 months immediately preceding the application for services), and:

•      is a citizen, or someone authorized by the Attorney General to work in the U.S., and

•      all male participants must have registered for military selective service.

A migrant farmworker is a seasonal farmworker whose agricultural labor requires travel to the job
site, without being able to return home to his/her permanent residence the same day.

The Attachment to NFJP Bulletin No. 00-02, effective July 1, 2000, states that: “As part of their
system of internal controls, grantees are expected to obtain source documentation that verifies the
information provided by applicants covering such key eligibility elements as age, work history and
earnings from agriculture labor, family size and income, work authorization, and compliance with
Selective Service requirements.”

In addition, paragraph 669.360(b) of WIA states that: “In providing emergency assistance, the
MSFW may use an abbreviated eligibility determination process that accepts the applicant’s self-
attestation as final evidence of eligibility, except that self attestation may not be used to establish
the requirements of legal working status in the United States, and Selective Service registration,
where applicable.”

10 of 42 Participants (23 Percent) Sampled Were Improperly Documented

To determine how effective TCD was in selecting eligible participants, we selected a statistical
sample of 42 TCD participants to test eligibility. Thirty-eight participants received emergency
related assistance and the remaining 4 received employment referrals. At a minimum, there should
be documents for all files that verify identity, work eligibility, and compliance with selective
service registration as noted above. We reviewed the participants’ files and discovered that 10 did
not contain the documentation required by regulations to support the participants’ eligibility.
Therefore, TCD could not substantiate the eligibility of these participants.




                                                   5
The migrant program was charged $684 for the food vouchers paid these participants, which we
question. Based on the sample results the projected error for the sample universe would be
$2,442.∗

Weaknesses in TCD’s internal control system allowed potentially ineligible participants to be
served. Therefore, TCD needs to strengthen its internal controls over participant selection by
developing a policy that prohibits the payment of funds to any participant until that participant has
provided sufficient documentation to determine they are eligible.

Auditee’s Response

          . . . It is our contention that the process of requesting documents, reviewing and
          copying or making notations of them constitutes compliance with the NFJP
          guidelines in this regard. . . .

          . . . It is further critical to note, as the reviewers did, that funds expended in these
          cases were nominal emergency assistance amounts; and that when participants
          desire to enter training, additional verification procedures are in place to prevent
          misexpenditures on ineligible applicants. In this regard, we request relief of these
          questioned costs under sections 184 (c) and (d) of the Workforce Investment Act
          and section 677.720 of WIA regulations.

Auditors’ Comments

All the files in question did not contain the minimal evidence to establish legal working status as
required by regulations. Only recording a number of a document viewed in the file is not
sufficient auditable evidence. We understand that on occasion it may not be possible to copy all
documents for the file. We have noted that some grantees will require an affidavit by the staff
member certifying the examination of the documents. This is an acceptable alternative to having
the document copied for the file.

RECOMMENDATION:

We recommend that the Assistant Secretary for ETA:

     1. Require TCD to take steps to ensure that documentation of eligibility is obtained and retained
        in accordance with program regulations so that eligibility can be independently verified.

     2. Recover the $684 in questioned costs.




∗ - $2,442 is the point estimate of questioned costs using a confidence level of 90 percent.

                                                                  6
2.   Performance Data Reviewed Were Accurate and Properly Supported

We reviewed the data reported by TCD on the Program Status Summary to determine whether this
information was accurate and properly supported. We were able to verify the overall totals
reported when we compared the information to the databases TCD maintained. A summary of this
data can be found on Schedule B - Schedule of Performance Reported.

Our testing of this data included reviewing the underlying support for the preparation of the
Program Status Summary as a whole, and reviewing the reported program information for the
sample of participants selected for testing. The results of our review agreed with the reported
outcomes for those participants that exited the program.

Finding 1 has a possible impact on the performance data. Based on the information in the finding,
the eligibility of some participants who only received services and exited the program was
improperly documented. We do not question the number of participants reported as service only
exits (135), but based on our sample results in Finding 1, some of those reported may be
questionable as to their eligibility for the program overall due to lack of documentation.




                                                 7
                                                                                         Schedule A


                                      TELAMON CORPORATION
                                           DELAWARE

                                 SCHEDULE OF COSTS REPORTED
                                  Program Year Ended June 30, 2001


                            Financial Status Report                 Reported

                            1. Classroom Training                   $      47
                            2. On-the-Job Training                          0
                            3. Work Experience                              0
                            4. Training Assistance                          0
                            5. Services Only                           55,254
                            6. Administration                           7,370
                            7. All Other Program                       58,665
                            8. Total                                $ 121,336

Terms Used Above:
Classroom Training:    Costs related to participants provided some form of organized classroom training.
                       Generally includes tuition costs, stipends, and support provided while in training.

On-the-Job Training:   Costs paid to reimburse an employer for half of the wages paid to a participant during a
                       contractual training period. Also includes support paid to the participant.

Work Experience:       Wages paid to a participant placed in a job by the grantee in order to assist the
                       participant by gaining practical work experience.

Training Assistance:   This is a category carried over from JTPA generally not used under WIA reporting.

Services Only:         Costs related to participants that are only provided support service, with no enrollment
                       in training programs.

Administration:        Salaries and overhead costs related to general administration of the program and not
                       directly providing program services. Costs are limited under the grant agreement.

All Other Program:     Salaries and overhead related to overall running of the program not broken out in any
                       category above.



                                                      8
                                                                                  Schedule A-1

                                TELAMON CORPORATION
                                     DELAWARE

                            SCHEDULE OF COSTS REPORTED
                                 Supplemental Information
                             Program Year Ended June 30, 2001

                                                         Incurred
                 Category                                   Costs    Subtotals

                 1. Classroom Training
                    A Allowances                         $     34
                    B Supportive Services                      13            47

                 2. On-the-Job Training                  $       0            0

                 3. Services Only
                    A. Salaries and Fringe Benefits      $ 24,482
                    B. Office Costs and Overhead           11,771
                    C. Supportive Services                 19,001        55,254

                 4. Training Assistance                  $       0            0

                 5. Work Experience                      $       0            0

                 6. Administration
                    A. Indirect Administration           $ 7,243
                    B. Miscellaneous Other                   127          7,370

                 7. Other Program
                    A. Salaries and Fringe Benefits      $ 40,803
                    B. Office Costs and Overhead           17,862        58,665

                 8. Total                                $121,336     $121,336


Note: The above information is not required to be reported to ETA, and was created by reviewing the
financial records used in preparation of the Financial Status Report.




                                                 9
                                                                 Schedule B


                      TELAMON CORPORATION
                           DELAWARE

           SCHEDULE OF PERFORMANCE REPORTED
               Program Year Ended June 30, 2001

Category                                      Planned   Reported

Total Participants                              110        150

 Total Terminations                             109        150

   Entered Unsubsidized Employment              15         13

      Direct Placement                           -          -

      Indirect Placement                         -          -

   Also Obtained Employability Enhancement       -          -

   Employment Enhancement Only                   -          -

   Services Only                                 -         135

   All Other Terminations                       94          2

 Total Current Participants (End of Period)      1          0




                                  10
                                                                  Schedule B-Continued

                                    TELAMON CORPORATION
                                         DELAWARE

                           SCHEDULE OF PERFORMANCE REPORTED
                               Program Year Ended June 30, 2001

Terminology Used

Participants                             Disadvantaged migrant and seasonal farmworkers and their
                                         dependents

Total Participants -                     Participants that were provided any services during the
                                         program year. Includes participants carried over, new
                                         participants, and those exiting during the program year.

Total Terminations -                     Participants that exited the program during the year.

Entered Unsubsidized Employment -        Participants placed in a non-federally subsidized job.

Direct Placement -                       Participants referred directly to a job with no training
                                         services provided. (Detail not required to be reported
                                         under WIA)

Indirect Placement -                     Participants placed in a job after training or enhancement
                                         services. (Detail not required to be reported under WIA)

Also Obtained Employability
Enhancement -                            Participants placed that also received services improving
                                         job prospects, such as completing GED program, obtaining
                                         a degree, completing occupational training. (Detail not
                                         required to be reported under WIA)

Employment Enhancement Only -            Participants not placed in a job but exiting the program
                                         with enhancements to improve job prospects. See
                                         examples above. (Detail not required to be reported under
                                         WIA)

Services Only -                          Participants that exited the program with support services
                                         only, with no training or referral to employment.

All Other Terminations -                 Participants that exited the program that do not fall into
                                         any other termination category.




                                            11
                      Appendix A
Response to Draft Report by Telamon Corporation - Delaware




                            12
13
14
15
16
17
18
19
20
